NO. __

_

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

NIKKIE NATHANIAL RICO, - PETITIONER

VS.
UNITED STATES OF AMERICA-RESPONDENT
PROOF OF SERVICE
I, J. Lance Hopkins, do swear or declare that on this date, August 9, 2021 as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED INFORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid.
The names and address of those served are as follows:
Solicitor General of the United States, Rm. 5614, Dept. of Justice, 950
Pennsylvania Ave., N.W., Washington, D.C. 20530-0001.

Elizabeth Ford Milani, Assistant U.S. Attorney for the District of Colorado, 1801
California Street, Ste. 1600, Denver, Colorado 80202
Nikki Nathanial Rico, Inmate #45472-013, FCI Florence, PO Box 6000, Florence,
Colorado 81226.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 9, 2021.
/s/J. Lance Hopkins
J. Lance Hopkins

